No. 19-643
INTHE

~upreme ~ourt of tbe Wniteb ~tates
JOHN HURRY, ET AL.,

Petitioners,
v.
FINANCIAL INDUSTRY REGULATORY
AUTHORITY, INC., ET AL.,

Respondents.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief in Opposition of Respondents Financial Industry Regulatory Authority,
Inc. and Scott M. Andersen contains 6,029 words and complies with the word limitation
established by Rule 33.l(g)(ii) of the Rules of this Court.
Dated: March 13, 2020

Gregory A. Davis

